No. 19-1269

In The
TCL COMMUNICATION TECHNOLOGY HOLDINGS
LIMITED, ET AL.,
v.

Petitioners,

TELEFONAKTIEBOLAGET LM ERICSSON, ET AL.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Federal Circuit
BRIEF OF AMICUS CURIAE FAIR STANDARDS
ALLIANCE IN SUPPORT OF PETITIONERS
Ruthanne M. Deutsch
Counsel of Record
Hyland Hunt
DEUTSCH HUNT PLLC
300 New Jersey Ave. NW
Suite 900
Washington, DC 20001
(202) 868-6915
rdeutsch@deutschhunt.com

TABLE OF CONTENTS
INTEREST OF AMICUS CURIAE............................. 1
INTRODUCTION
AND
SUMMARY
OF
ARGUMENT ......................................................... 4
ARGUMENT ................................................................ 8
Absent Immediate Review, The Threat Of BlackBox Jury Verdicts Seriously Jeopardizes
FRAND
Commitments
Essential
To
Economic Growth And Innovation. ...................... 8
A. Standardization Undergirds the Digital
Age.................................................................... 8
B. The Global Economic Benefits of
Standardization Are Predicated on
Enforcement
of
a
SEP
Owner’s
Commitment to License on FRAND
Terms. ............................................................ 15
C. Allowing U.S. Juries to Set FRAND
Licensing Terms Will Stall Development
of the Law Needed to Guide Business
Negotiations. .................................................. 18
CONCLUSION .......................................................... 22

(i)

ii
TABLE OF AUTHORITIES
CASES
Microsoft Corp. v. Motorola, Inc.,
No. C10-1823JLR, 2013 U.S. Dist. LEXIS 60233
(W.D. Wash. Apr. 25, 2013) .................................. 17
Microsoft Corp. v. Motorola, Inc.,
795 F.3d 1024 (9th Cir. 2015) ............................... 20
OTHER AUTHORITIES
Apple, Remarks for ITU Patent Roundtable (Oct. 10,
2012), https://tinyurl.com/y9nv5b6b ..................... 21
Justus Baron & Tim Pohlmann, Mapping Standards
to Patents Using Declarations of StandardEssential Patents, 27 J. ECON. & MGMT. STRATEGY
504 (2018) .............................................................. 14
Brad Biddle et al., How Many Standards in a
Laptop? (And Other Empirical Questions) (Sept.
10, 2010), https://tinyurl.com/ycyys4jv ................. 14
The CEN and CENELEC Workshop, CENCENELEC,
https://tinyurl.com/y7e46w2v .................................. 3
Jorge L. Contreras, A Brief History of FRAND:
Analyzing Current Debates in Standard Setting
and Antitrust Through a Historical Lens,
80 ANTITRUST L.J. 39 (2015) ...................... 10, 15, 16

iii
Jorge L. Contreras, Aggregated Royalties for TopDown FRAND Determinations: Revisiting “Joint
Negotiation,” 62 ANTITRUST BULL. 690 (2017).19–20
Jorge L. Contreras, Essentiality and StandardsEssential Patents, in THE CAMBRIDGE HANDBOOK
OF TECHNICAL STANDARDIZATION LAW:
COMPETITION, ANTITRUST, AND PATENTS 209 (Jorge
L. Contreras ed., 2017) .................................... 11, 12
Core Principles and Approaches for Licensing of
Standard Essential Patents, FAIR STANDARDS
ALLIANCE, https://fair-standards.org/cwa_/ ............ 3
Fair Standards Alliance: An Introduction,
FAIR STANDARDS ALLIANCE (Nov. 12, 2015),
https://tinyurl.com/y9tff8xk ................................ 2, 4
FED. TRADE COMM’N (FTC), THE EVOLVING IP
MARKETPLACE: ALIGNING PATENT NOTICE AND
REMEDIES WITH COMPETITION (2011),
https://tinyurl.com/z3h7hnw ........................... 11, 16
Key Principles, FAIR STANDARDS ALLIANCE,
https://fair-standards.org/key-principles/ ............... 4
William F. Lee & A. Douglas Melamed, Breaking the
Vicious Cycle of Patent Damages,
101 CORNELL L. REV. 385 (2016) ..................... 11, 13
Mark A. Lemley & Carl Shapiro,
Patent Holdup and Royalty Stacking,
85 TEX. L. REV. 1991 (2007)....................... 13, 20, 21

iv
Mark A. Lemley & Timothy Simcoe,
How Essential Are Standard-Essential Patents?,
104 CORNELL L. REV. 607 (2019) ............... 12, 14, 16
Bernard Marr, 17 ‘Internet of Things’ Facts Everyone
Should Read, FORBES (Oct. 27, 2015),
https://tinyurl.com/ycsoarn4 ................................... 9
Bradley Mitchell, 802.11 Standards Explained,
LIFEWIRE (Apr. 22, 2020),
https://tinyurl.com/hzyxxsn................................... 10
Jacob Morgan, A Simple Explanation of ‘The Internet
of Things,’ FORBES (May 13, 2014),
https://tinyurl.com/yawb95ja .................................. 8
Quality and the Beginning of Standardization,
QUALITY MAG. (Apr. 1, 2015),
https://tinyurl.com/ycrn3ppd ................................... 5

v
RPX CORP., STANDARD-ESSENTIAL PATENTS: HOW DO
THEY FARE? 1 (2014),
https://tinyurl.com/ycf5umzq ................................ 12
Standard Setting Organizations and Standards List,
CONSORTIUMINFO.ORG,
https://tinyurl.com/ybhsaq6u ................................ 10
Christoph Winterhofer, A New Revolution in the
Making, ISOFOCUS MAG., Nov.–Dec. 2018
https://tinyurl.com/ybmbq78b ................................. 9
Why Technical Standards Are Essential in Product
Development, INST. ELECTRICAL & ELECTRONICS
ENGINEERS, https://tinyurl.com/yd6qnnod (last
visited June 3, 2020) ............................................. 10

INTEREST OF AMICUS CURIAE 1
Amicus Fair Standards Alliance is an alliance of
global companies, large and small, that advocates for
fair licensing of standardized technology. The
diversity and global reach of the Alliance’s 47
members reflects the ubiquity and importance of
technical standards in every sector of the global
economy, where the evolution of the Internet of Things
means that once stand-alone products like cars,
thermostats, or lawn sprinklers are increasingly
interconnected. Standardization is the oxygen that
allows this innovation ecosystem to flourish. Abusive
licensing practices by holders of standard-essential
patents (SEPs) pollute the air.
FSA’s members are active in a broad variety of
sectors, such as automotive, energy, technology, and
telecommunications, to name a handful. Members
occupy different positions in the value chain, from
component manufacturers to final suppliers of
consumer goods, and include both holders of standardessential patents (SEPs) and downstream innovators.
The Alliance’s members rank among the world’s
largest innovators, spending more than $150 billion on
research and development per year developing
technology, participating in standards development,
and licensing SEPs to (or from) others. And FSA’s
diverse
membership,
including
multinational
Counsel of record for all parties received timely advance
notice of the intent to file this brief and consented to the filing of
the brief. S. CT. R. 37.2(a). No counsel for any party authored this
brief in whole or in part, and no person or entity other than
amicus curiae, its members, or its counsel made a monetary
contribution intended to fund the brief’s preparation or
submission.
1

(1)

2
corporations and small enterprises, employs hundreds
of thousands of workers worldwide, accounting for
more than $2.2 trillion in aggregate sales annually.
Collectively, Alliance members have more than
500,000 patents, including SEPs, that are either
granted or pending. 2
The Alliance works throughout the globe to
promote key principles for licensing of standardessential patents on a fair, reasonable, and nondiscriminatory (FRAND) basis. FSA’s diverse
members are “united in the view that unfair and
unreasonable SEP licensing practices pose a
significant risk to the innovation eco-system, create
barriers to entry for new market players, threaten to
stifle the full potential for economic growth across
major industry sectors, and ultimately harm consumer
choice.” Fair Standards Alliance: An Introduction,
FAIR STANDARDS ALLIANCE 1–2 (Nov. 12, 2015),
https://tinyurl.com/y9tff8xk (“FSA Introduction”). To
counter the abuse of commitments to license standardessential patents on fair, reasonable, and non2

FSA’s current members include AirTies, Apple, BMW,
Bullitt, Bury, Cisco, Continental, Crosscall, Daimler, Dell, Denso,
Emporia, Fairphone, Ford, Freebox, Google, Gramm Lins,
Harman, Hitachi, Honda, HP, Hyundai, Intel, Juniper,
Kamstrup, Landis+Gyr, Lenovo, Microsoft, Molex, N&M
Consultancy, Nordic Semiconductor, Pearl Cohen, Sagemcom,
Sequans, SierraWireless, Sky, Tech Law Associates, Deutsche
Telecom, Telit, Tesla, TomTom, Toyota, U-blox, Valeo, Visteon,
Volkswagen, and Wiko. The positions presented in this amicus
brief are those of the FSA and do not necessarily reflect the
detailed individual corporate positions of each member. Further
information on the Alliance is available at http://www.fairstandards.org.

3
discriminatory terms, the Alliance promotes clear
FRAND licensing principles and engages in dialogue
with stakeholders, agencies and regulators across the
globe regarding best practices for resolving FRAND
licensing disputes.
The diverse members of Amicus Fair Standards
Alliance—holders
and
licensors
of
SEPs,
multinational corporations and small business, endproduct and component manufacturers—are working
towards building a much-needed consensus on
principles for setting FRAND licensing terms. This
proposed “standardization” of methodologies for
defining FRAND licensing terms and resolving
FRAND disputes allows for needed business flexibility
in negotiations, while aiming to prevent abuses by
SEP owners. Towards this end, the Alliance was a
main proponent of a critical policy document,
supported by over 50 organizations, establishing
guidelines for the licensing of standard essential
patents in the European Community: “Core Principles
and Approaches for Licensing of Standard Essential
Patents”, commonly known as “CWA2”. See Core
Principles and Approaches for Licensing of Standard
Essential Patents, FAIR STANDARDS ALLIANCE,
https://fair-standards.org/cwa_/. 3
Substantively, key FRAND principles include:
making SEPs available to all companies seeking to
manufacture and sell equipment related to a
particular product at all levels of the supply chain, not
3

Details on this agreement and the consultation process
behind it are available at The CEN and CENELEC Workshop,
CENCENELEC, https://tinyurl.com/y7e46w2v.

4
just the higher-value end products; considering the
value of the patented invention apart from its
inclusion in the standard and from its combination
with other technologies not claimed in the patent;
accounting for the smallest unit implementing the
SEP; and avoiding royalty stacking. See generally FSA
Introduction, supra, and Key Principles, FAIR
STANDARDS ALLIANCE, https://fair-standards.org/keyprinciples/.
The Alliance has filed amicus curiae briefs to
explain the importance of technical standards to the
global economy, why fair licensing of standardessential patents matters, and how important judicial
decisions, like the Federal Circuit’s here, will frame
the future of FRAND licensing negotiations. This is
the Alliance’s first amicus curiae appearance before
this Court, and FSA writes here to impress upon the
Court the urgency of granting review. If left standing,
the Federal Circuit’s rule allowing juries to set
FRAND licensing terms will threaten the productivity
and consumer welfare gains that standardization and
interoperability promise. Instead of negotiating
FRAND terms against the backdrop of reasoned
judicial decisions, SEP holders will be encouraged to
race to U.S. courthouses in search of high returns from
black-box jury verdicts.
INTRODUCTION
AND SUMMARY OF ARGUMENT
Standardization has been essential to economic
growth and development since the dawn of
industrialization, when Eli Whitney received a
government contract to produce muskets, and—

5
building on the ideas of Honoré Blanc, the
superintendent
of
French
armories—used
standardized, interchangeable parts to manufacture
and deliver thousands of muskets. Quality and the
Beginning of Standardization, QUALITY MAG. (Apr. 1,
2015),
https://tinyurl.com/ycrn3ppd.
Over
the
centuries that followed, and ever more so today,
standards have emerged as important enablers for a
competitive and dynamic global market where
innovation and interoperability go hand in hand.
Standards are pervasive in today’s interoperative
world, where it is unimaginable that your laptop
couldn’t readily connect to wireless networks; your cell
phone couldn’t send messages to another device; or the
corner ATM would be unable to communicate with a
bank’s accounting system. Thousands upon thousands
of technical standards—set by companies working
together in national and international organizations—
allow countless different products made by different
companies to connect and work together for the benefit
of all, especially now with the emergence of the
innovation eco-system commonly known as the
Internet of Things.
Many companies work together to create
standards. And once standards are adopted, SEP
holders benefit from the opportunity to license their
inventions to a much larger pool of potential licensees
than they otherwise could have accessed. And in
exchange, they promise to support widespread use of
the standard through a voluntary commitment to
license on fair, reasonable, and non-discriminatory
terms. Such FRAND commitments are instrumental

6
for standards to be successful and widely taken up by
the market.
Standard-setting
organizations
establish
intellectual property rights policies, including
requirements that SEP holders commit to licensing on
a FRAND basis. Such general commitments are then
realized in bilateral negotiations between the SEP
holder and its putative licensees, and these
negotiations take place in the shadow of the law.
The Alliance espouses the adoption of several key
FRAND licensing principles to limit opportunities for
standard-essential patent holders to abuse their
extraordinary market power, and thereby promote
increased adoption of standards. Standardization, in
turn, spurs innovation that builds on the foundation of
standardized technologies and ultimately, the
production of more affordable interconnected
products.
Key principles of functional FRAND licensing
include fostering transparency that creates greater
predictability in licensing terms and avoids
discrimination against different licensees; use of a
reasoned analysis to ensure that SEPs are valued for
their own contributions apart from the value of
contributions and inventions made by others; and
encouraging dispute resolution processes based on
transparent valuation guidelines that yield reasoned
public decisions which can guide and encourage future
negotiations.
The Alliance agrees with Petitioners that the
decision below “misinterprets the Constitution,
scrambles the allocation of responsibility between
judge and jury, and injects substantial uncertainty

7
into suits seeking to enforce FRAND commitments.”
Pet. 14. Drawing upon its years of working to refine
FRAND principles, and the licensing experiences of its
broad and diverse membership, the Alliance writes to
further explain how allowing U.S. juries to set
licensing terms for FRAND commitments is not only
plainly wrong as a matter of law, but will “increase
gamesmanship and undermine the significant
economy-wide benefits of FRAND obligations.” Pet. 14.
Black-box jury verdicts are the antithesis of the
reasoned decisions based on transparent valuation
metrics that should underpin FRAND licensing
agreements.
Far from encouraging negotiations through
publicly available reasoned judicial decisions that
refine and elucidate FRAND principles, the Federal
Circuit’s rule will encourage SEP holders to race to US
courthouses whenever there is a licensing dispute.
And SEP holders will have every incentive to rely upon
the erroneous ruling below to seek jury awards of high
royalty rates that apply across global portfolios, a
remedy beyond the pale of U.S. law. Frictions will
arise between international courts; the costs of
standardization will increase; and the innovation ecosystem will be damaged by a rule that provides all the
wrong signals. This Court’s intervention is urgently
needed to reverse the ruling below.

8
ARGUMENT
Absent Immediate Review, The Threat Of BlackBox Jury Verdicts Seriously Jeopardizes
FRAND Commitments Essential To Economic
Growth And Innovation.
Whether, when disputes arise, a judge or jury
should determine fair, reasonable, and nondiscriminatory licensing terms for standard-essential
patents is no arcane question of patent law. It is a
pressing question, demanding the Court’s attention,
that impacts every nook and cranny of the modern
economy.

A.

Standardization
Digital Age.

Undergirds

the

1. Technical standards are everywhere; as
important to the economy as oxygen is to the air we
breathe. Pervasive use of standards allows the
products we use in daily life to connect with each
other, and with a larger digital universe, creating
what is often called the Internet of Things. The
possibility of connecting any device with an on and off
switch not only to the Internet, but also to one another,
spans everything from cellphones to coffee makers;
washing machines to wearable fitness devices; or even
the jet engine of an airplane or the drill of an oil rig.
See Jacob Morgan, A Simple Explanation of ‘The
Internet of Things,’ FORBES (May 13, 2014),
https://tinyurl.com/yawb95ja. From “smart cities” that

9
can help us reduce waste and improve efficient energy
use, to technologies that can link your calendar, your
car, traffic monitoring services, and your phone—so
you know what time to leave for your meeting and the
best route to take—the Internet of Things has vast
potential to improve our life and promote growth and
development.
We’ve come a long way since Eli Whitney’s
interchangeable musket parts. Since ATMs took hold
in the 1970’s, till present day—when there are more
objects connected to the Internet than there are
people—the Internet of Things has grown
exponentially. Bernard Marr, 17 ‘Internet of Things’
Facts Everyone Should Read, FORBES (Oct. 27, 2015),
https://tinyurl.com/ycsoarn4. One company estimates
that the “Industrial Internet” (a synonym for the
Internet of Things) will add over $10 trillion to global
GDP in the first quarter of the 21st century. Id. Global
data traffic has exploded as devices, machines, and
humans become increasingly networked. “In 2015,
over 20 billion devices and machines were connected,
and this number is expected to have increased to half
a trillion by 2030.” Christoph Winterhofer, A New
Revolution in the Making, ISOFOCUS MAG., Nov.–Dec.
2018, at 2, https://tinyurl.com/ybmbq78b.
For our devices to communicate and work
seamlessly with one another, “digitalization and
standardization must go hand in hand.” Id. Technical
standards provide “a common global language for
product development,” that allows “cell phones to
communicate with each other anywhere in the world,
… bank cards to fit into any cash machine, …
consumers to buy a light bulb for just about any lamp

10
in any store, … for them to be able to plug that lamp
into an electrical outlet,” and so much more. Why
Technical Standards Are Essential in Product
Development, INST. ELECTRICAL & ELECTRONICS
ENGINEERS, https://tinyurl.com/yd6qnnod (last visited
June 3, 2020).
2. This “common global language” of technical
standards is built by industry consensus through
standard-setting organizations (SSOs), where many
companies and market participant members work
collectively to make the technical decisions necessary
to promote product interoperability. Examples abound
at the national, regional, and global levels, including
the European Technical Standards Institute (ETSI)
that developed the cellular network standards at issue
in this case, Pet. 7; the Institute of Electrical and
Electronics Engineers (IEEE) that provides the 802.11
set of standards (for wireless network connectivity),
see Bradley Mitchell, 802.11 Standards Explained,
LIFEWIRE (Apr. 22, 2020), https://tinyurl.com/hzyxxsn;
and over a thousand others. See Standard Setting
Organizations
and
Standards
List,
CONSORTIUMINFO.ORG, https://tinyurl.com/ybhsaq6u
(listing and categorizing 1120 organizations, with
links to the standards they maintain); see also
generally Jorge L. Contreras, A Brief History of
FRAND: Analyzing Current Debates in Standard
Setting and Antitrust Through a Historical Lens, 80
ANTITRUST L.J. 39, 42–46 (2015) (“Brief History of
FRAND”) (summarizing the history of standardsetting organizations and the origins of FRAND
commitments).

11
As SSO members agree upon a technical
standard, firms that apply the standard make
significant investments in research and development,
manufacturing, training, etc., in reliance upon the
promise of interoperability across a product category.
Once this train is in motion, it is not easy to stop. A
phenomenon referred to as lock-in can occur, where
the cost of switching from the standardized technology
to an alternative technology, or designing around the
established standard, is at least prohibitive and
probably not even possible. FED. TRADE COMM’N (FTC),
THE EVOLVING IP MARKETPLACE: ALIGNING PATENT
NOTICE AND REMEDIES WITH COMPETITION 28 (2011),
https://tinyurl.com/z3h7hnw
(“Evolving
IP
Marketplace”). For example, “since virtually all
wireless laptops are configured to communicate with
wireless local area networks using the IEEE 802.11
standard, there is no market for wireless routers that
do not comply with that standard.” William F. Lee &
A. Douglas Melamed, Breaking the Vicious Cycle of
Patent Damages, 101 CORNELL L. REV. 385, 429 (2016)
(“Breaking the Vicious Cycle”). If you want to make
and sell a wireless router, you are locked into that
standard.
Especially when public authorities incorporate
standards into legislation, their importance is
elevated. “They act as gatekeepers not only to
potentially lucrative commercial markets, as they do
in the context of voluntary consensus standards, but
as gatekeepers to the only market in the industry: one
that is defined by government.” Jorge L. Contreras,
Essentiality and Standards-Essential Patents, in THE
CAMBRIDGE
HANDBOOK
OF
TECHNICAL

12
STANDARDIZATION LAW: COMPETITION, ANTITRUST, AND
PATENTS 209, 212 (Jorge L. Contreras ed., 2017)
(“Essentiality”)
(discussing
ETSI’s
European
telecommunication standards).
3. The process of establishing a standard requires
members of standard-setting organizations to
collectively determine which technologies are required
to implement it. Standard-essential patents, or SEPs,
are patents that cover technologies needed to practice
a given standard, so that one cannot build a standardcompliant device without implementing the invention
covered by the SEP. A “truly” standard-essential
patent “is, by definition, practiced by everyone that
uses the relevant standard.” RPX CORP., STANDARDESSENTIAL PATENTS: HOW DO THEY FARE? 1 (2014),
https://tinyurl.com/ycf5umzq.
The
large
majority
of
standard-setting
organizations have adopted policies setting disclosure
or licensing obligations (or both) for participants
holding
patents
deemed
essential
to
the
implementation of that organization’s standards. See
Jorge L. Contreras, Essentiality, supra, at 209; 4 see
also Mark A. Lemley & Timothy Simcoe, How
Essential Are Standard-Essential Patents?, 104
CORNELL L. REV. 607, 609–10 & nn.12–13 (2019) (How
Essential?) (discussing how SEPs are awarded and
under what conditions). Participation in a standardsetting organization requires acceptance of its patent
licensing obligations in exchange for having input to
and information about the technical decisions made
4

Each organization has its own definition of essential, and
these definitions have evolved over time. See id. at 210–16.

13
for the standard. SSOs adopt the FRAND approach,
along with other intellectual property rights policies,
to proactively avoid the competitive risks that would
otherwise be associated with standard-setting, given
the tremendous market power that accompanies
award of a SEP.
Such competitive risks arise because companies
that implement technical standards become locked-in
to a particular design and its associated SEPs even
before they have begun to implement the technology,
and thus do not have the freedom to choose a
competing design. Such lock-in occurs because of “the
enormous group coordination and decision-making
costs that the SSO and its members have incurred to
develop and adopt the standard, and that would have
to be incurred again to change or replace it.” Lee &
Melamed, Breaking the Vicious Cycle, supra, at 429;
see also Mark A. Lemley & Carl Shapiro, Patent
Holdup and Royalty Stacking, 85 TEX. L. REV. 1991,
2016 (2007) (acknowledging the near impossibility of
designing around a chosen technical standard ex post,
even though an alternative standard could have been
adopted ex ante).
To further complicate things, the difficulties of
changing standards to design around their
corresponding SEPs do not arise in a straightforward
one-device-per-standard-per-patent pattern. Rather,
the technical standards that underpin our
interconnected world form an intricate web where
modern devices typically incorporate many different
standardized technologies, some of which can interact
with each other. Moreover, each standard may be

14
covered by thousands of SEPs, held by hundreds of
patent owners.
A 2010 study found, for instance, that at least
251 technical interoperability standards applied to a
modern laptop computer. See Brad Biddle et al., How
Many Standards in a Laptop? (And Other Empirical
Questions)
1
(Sept.
10,
2010),
https://tinyurl.com/ycyys4jv. What’s more, a complex
product like a smart phone will likely implement not
only mobile communications standards, but many
other standards including those related to data
communications (96 standards), and local area
networks (LAN) (325 standards). Justus Baron & Tim
Pohlmann, Mapping Standards to Patents Using
Declarations of Standard-Essential Patents, 27 J.
ECON. & MGMT. STRATEGY 504, 518 (2018). Each
standard means many more SEPs; “[c]omplex
standards like WiFi and 3G wireless communications
attract hundreds and even thousands of declared
SEPs.” Lemley & Simcoe, How Essential?, supra, at
611.
In sum, the interconnected world we live in today
would not exist without countless technical standards
generated through consensus. These standards are
covered by the countless more standard-essential
patents needed to implement them. And the evenmore interconnected future that we envision—of
smart homes, driverless cars, and integrated devices
that can monitor and improve our health—will be even
more dependent upon widespread standardization.

15
B.

The Global Economic Benefits of
Standardization Are Predicated on
Enforcement of a SEP Owner’s
Commitment to License on FRAND
Terms.

Because consensus-based standards often
incorporate standard-essential patented technologies,
market participants face a high number of licensing
demands and negotiations for every product. The risk
of being “held up” by every SEP owner undermines
incentives to develop and market products. Innovation
based on standardization and interoperability thus
depends on honoring the commitment to fair and
rational licensing terms for SEPs. FRAND licensing
terms allow patent-holders to benefit from their
technical contributions to the standard. At the same
time, enforcing FRAND commitments ensures that
SEP holders will not exploit the extraordinary market
power they have been granted by virtue of the
consensus decision of SSO members to include their
technology in the standard.
1. The need to appropriately reward innovation
while preventing abuse of market power led SSOs to
require FRAND licensing commitments as a condition
of participating in the standard setting process. The
commitment to license a SEP on fair, reasonable, and
non-discriminatory terms is “made voluntarily by
participants in standards-development activities … to
induce others to adopt their patented technology in a
standard.” Contreras, Brief History of FRAND, supra,
at 45. It seeks to ensure that a licensor’s compensation
is based on the value of its inventions absent
standardization, not the value created by the

16
consensus decision to include the patented technology
in a standard, which would otherwise incorporate
investments made by implementers of that standard.
The FRAND licensing commitment promotes
broad adoption of the standard, with concomitant
economic gains. On the flipside, refusal to comply with
that commitment and license on fair, reasonable and
nondiscriminatory terms can pose a significant risk to
innovation and create barriers to entry for new market
players, with consumers being the ultimate losers. If a
given standard cannot be implemented without use of
a SEP, the SEP holder could potentially block a user
of that standardized technology from the market
altogether, a phenomenon described as patent holdup. See generally Lemley & Simcoe, How Essential?,
supra, at 610 & n.13. The FRAND quid pro quo (a SEP
owner’s promise to license at FRAND rates in
exchange for participating in setting the standard)
arose
precisely
because
standard-setting
organizations recognized the potential for SEP holders
to extract unreasonably high royalties due to threats
of hold-up and the lock-in effects of their decisions to
include specific technologies in their standards. See
Contreras, Brief History of FRAND, supra, at 42; FTC,
Evolving IP Marketplace, supra, at 22.
This critical FRAND commitment is ordinarily
defined in only general terms. FTC, Evolving IP
Marketplace, supra, at 22–23. The specific terms of
FRAND licenses are negotiated case-by-case and the
scenarios of negotiating FRAND licensing terms for
standard-essential patents can be quite complicated.
Ideally negotiations yield a happy result for both
parties—but sometimes negotiations break down, and

17
disputes arise, including litigation like this case. How
these disputes are resolved—and how well that
process helps form precedent and legal rules—will
create the “shadow of the law” under which future
negotiations occur.
The law is still evolving. Assessing what
constitutes FRAND licensing terms involves many
factors, including “looking at the importance of the
SEPs to the standard and the importance of the
standard and the SEPs to the products at issue.”
Microsoft Corp. v. Motorola, Inc., No. C10-1823JLR,
2013 U.S. Dist. LEXIS 60233, at *19 (W.D. Wash. Apr.
25, 2013). Also important is the choice of royalty base,
to avoid a problem known as “royalty stacking.”
2. The district court judge in this case contributed
to the evolution of the case law when he issued an
extensive one-hundred-plus page decision setting a
FRAND rate for a portfolio of alleged SEPs.
Transparent and reasoned procedures for resolving
FRAND disputes—including the issuance of judicial
decisions—can help crystallize issues and guide future
negotiations. Further development of the law through
careful written judicial decisions is needed to bring
needed clarity and predictability to industry
understanding of FRAND rates.
Recourse to a reasoned decision-making process
is important when disputes arise. Disputes in SEP
cases are often very complex. If negotiations reach an
impasse, the ideal is a fair, reasoned and transparent
process where judicial decision-makers have authority
to obtain and serve as gate-keepers of evidence of the
specific standard, the SEPs of the standard, their
value, and licensing practices in the related

18
industries. Publication of precedential decisions by
these reasoned decision-makers allows guidance for
future courts or company negotiators.
The ruling below jeopardizes these principles.
Allowing U.S. juries to set license rates without
“showing their work” eviscerates transparency and
generates no reasoned decision that can inform future
negotiations and dispute resolution. Recourse to
unpredictable decision-makers with no expertise or
context is far from the sort of process that fosters the
development of consistent, reasonable FRAND
precedent. Such precedent is desperately needed to
support parties’ ability to negotiate and enter
licensing agreements “in the shadow of the law” that
is well-reasoned and correctly incorporates the
economic
concerns
underlying
the
FRAND
commitment.

C.

Allowing U.S. Juries to Set FRAND
Licensing
Terms
Will
Stall
Development of the Law Needed to
Guide Business Negotiations.

The Alliance agrees with Petitioners that the
Federal Circuit’s rule is wrong as a matter of U.S.
constitutional law. See Pet. Part I.B. The Alliance also
roundly endorses Petitioners’ argument that the
Federal Circuit was unequivocally wrong in conflating
the global release payment here with legal damages
for patent infringement, and that the “scope of the
release payment [here] extended far beyond what U.S.

19
patent law provides.” Pet. 19. 5 The Alliance can attest,
from extensive experience, that the practical
consequences are as grave as these legal errors.
Allowing U.S. juries to determine FRAND licensing
terms will threaten the functioning of the innovation
ecosystem, with consumers being the ultimate victims.
Infringement was never proved here and “the
release payment applied with no regard to whether
TCL actually infringed a valid patent.” Pet. 19. TCL
sought only specific performance of Ericsson’s
acknowledged commitment to license at FRAND rates.
Setting a FRAND royalty rate for a large patent
portfolio can implicate additional concepts than are
typically needed to determine a “reasonable royalty
rate” for patent infringement for one or a small
handful of patents, such as the need to consider a “topdown” methodology to consider the overall royalty
burden for a standard or a product. This methodology
“begin[s] with the aggregate royalty that should be
payable with respect to all SEPs covering a particular
standard, and then allocate[s] a portion of the total to
individual SEPs.” Jorge L. Contreras, Aggregated
Royalties for Top-Down FRAND Determinations:
Revisiting “Joint Negotiation,” 62 ANTITRUST BULL.
5

In the Alliance’s view, no U.S. court—whether judge or
jury—should be setting global licensing terms for worldwide
patent portfolios absent the prospective licensee’s clear and
unequivocal agreement. Here, the parties made a “mutual
request that their license dispute be resolved by crafting a global
license with FRAND terms, to be imposed on the parties in the
form of an injunction.” Pet. 10. Because of this party agreement,
this case does not present the complicated legal questions that
arise from having courts of one jurisdiction set extraterritorial
licensing terms that apply across other jurisdictions.

20
690, 690 (2017). Starting from the top—with a
reasonable aggregate royalty determination—helps to
avoid a phenomenon known as “royalty stacking,”
where “(1) the cumulative royalties paid for patents
incorporated into a standard exceed the value of the
feature implementing the standard, and (2) the
aggregate royalties obtained for the various features
of a product exceed the value of the product itself.”
Microsoft Corp. v. Motorola, Inc., 795 F.3d 1024, 1031
(9th Cir. 2015) (citing, inter alia, Mark A. Lemley &
Carl Shapiro, Patent Holdup and Royalty Stacking, 85
TEX. L. REV. 1991, 2010–13 (2007)).
Courts across the globe are working to build a
body of precedent on these and other methodologies for
calculating FRAND royalties. For every litigated
dispute and resulting decision, there are thousands of
negotiations taking place in its shadow. Published
judicial decisions contribute to an evolving consensus
on the key substantive principles governing FRAND
royalties. That was the standards community’s hope
for this case—where the bulk of the party and amicus
briefing before the Federal Circuit focused on disputed
questions about how to calculate the FRAND rate that
Ericsson had committed to charging. But instead of
providing sorely-needed precedent to guide future
FRAND negotiations, the Federal Circuit undermined
the entire process.
Letting U.S. juries set FRAND licensing terms
through black-box verdicts provides all the wrong
incentives. There will be no precedent-setting
decisions or reasoned judicial analyses that can help
to create a governing body of FRAND principles and
guide
negotiations.
Far
from
encouraging

21
negotiations, the Federal Circuit’s ruling will instead
encourage litigation when a licensing dispute arises.
Even the threat of such behavior, coupled with the
tremendous unpredictability of allowing juries to set
complex contractual terms, will grant SEP holders
more leverage than they already hold to extract
excessive royalties that “act as a tax on new products
incorporating the patented technology, thereby
impeding rather than promoting innovation.” Lemley
& Shapiro, Patent Holdup, supra, at 1993. And the
final bill will be paid by consumers.
Ultimately, allowing the Federal Circuit’s ruling
to stand transforms the FRAND commitment from “a
shield that preserves open access to standardized
technologies” to a “sword to bully companies into …
paying excessive royalties.” 6 This Court’s intervention
is urgently needed to ensure that key FRAND
principles are not turned upside down.

6

Apple, Remarks for ITU Patent Roundtable (Oct. 10,
2012), https://tinyurl.com/y9nv5b6b.

22
CONCLUSION
The Court should grant the petition for writ of
certiorari.
Respectfully submitted,
Ruthanne M. Deutsch
Counsel of Record
Hyland Hunt
DEUTSCH HUNT PLLC
June 2020

